                   U.S. Department of Agriculture

                      Office of Inspector General
                               Southwest Region




         Audit Report




       Rural Utilities Service
Broadband Grant and Loan Programs




                         Audit Report 09601-4-Te
                               SEPTEMBER 2005
                   UNITED STATES DEPARTMENT OF AGRICULTURE

                                    OFFICE OF INSPECTOR GENERAL


                                         Washington, D.C. 20250


September 30, 2005



TO:            Curtis M. Anderson
               Acting Administrator
               Rural Utilities Service

THROUGH: John M. Purcell
         Director
         Financial Management Division

FROM:          Robert W. Young /s/
               Assistant Inspector General
                 for Audit

SUBJECT:       Audit Report 09601-4-Te - Broadband Grant and Loan Programs


This report presents the results of the subject audit. Your written response to the draft report, dated
September 30, 2005, is included as exhibit E with excerpts and the Office of Inspector General’s
(OIG) position incorporated into the relevant Findings and Recommendations sections of the report.

Based on the response, management decisions were reached on Recommendations 6, 7, and 12.
Please follow Departmental and your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer, Director, Planning and Accountability
Division (OCFO/PAD).

Although we agree with most of the other planned corrective actions, management decisions could
not be reached on Recommendations 1, 2, 3, 4, 5, 8, 9, 10, 11, 13, and 14. Documentation and
actions needed to reach management decisions for these recommendations are described in the OIG
Position sections of the report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementing those
recommendations for which management decision has not been reached. Please note that the
regulation requires a management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Performance and Accountability Report.

We appreciate your timely response and the courtesies and cooperation extended to us by
members of your staff during the audit.
Executive Summary
Rural Utilities Service Broadband Grant and Loan Programs (Audit Report 09601-4-Te)

Results in Brief                   During the 4 years the Rural Utilities Service (RUS) has administered
                                   Federal loans and grants for extending broadband service to rural America,
                                   the programs’ focus has shifted away from those rural communities that
                                   would not, without Government assistance, have access to broadband
                                   technologies. This change in the programs’ emphasis has occurred for two
                                   reasons. First, in its loan program, RUS has not satisfactorily implemented
                                   statutory requirements for serving rural instead of suburban areas, nor does it
                                   have a system that can guarantee that communities without preexisting
                                   service receive priority. Second, RUS’ inconsistent administration of the
                                   programs has resulted in irregularities in approving and servicing grants and
                                   loans. Of the $895 million in loans and grants funded, we reviewed
                                   $599.1 million (67 percent) and questioned the use of over $340.4 million—
                                   almost 57 percent of the approved funds reviewed. (See table 1 below.)

                                                                                                                       AMOUNT IN
                                                                DESCRIPTION                                             MILLIONS
                                                                                                                        (Rounded)
                                     Finding 1 - Loan Funds Awarded to Suburban Communities on the
                                     Outskirts of Large Cities 1                                                                    $103.4
                                     Finding 3 -
                                      Loan Funds Approved Even Though Applications Were
                                      Incomplete 2                                                                     $137.4
                                      Grant Funds Used for Unauthorized Purposes                                          1.9
                                      Grant Funds Not Yet Advanced but at Risk                                             .8
                                       Defaulted Loans                                                                   30.4
                                       Loan and Grant Funds Not Drawn Down                                               59.3
                                       Loan Funds Canceled but Not Reobligated                                            6.8
                                                                 Total for Finding 3                                                  236.6
                                     Finding 4 - Duplicate Funding for Same Community                                                    .4
                                                                   TOTAL                                                            $340.4
                                                                                    Table 1

                                   In order to assess RUS’ management controls (Fiscal Years 2001 through
                                   2005, as of March 10, 2005) over the Broadband Grant and Loan Programs
                                   and to determine the appropriateness of grant and loan usage, the Office of
                                   Inspector General (OIG) reviewed 33 of 90 funded grants totaling
                                   $20.2 million of $41 million, or 49 percent of the total funded amount. We
                                   also reviewed 28 of 64 funded loans totaling $578.9 million of $854 million,
                                   or 68 percent of the total funded amount.



1
  $106,155,452 was loaned for this purpose; however, $2,743,554 of this amount is duplicated in the loans in default discussed in Finding 3.
2
  $179,536,000 in loans was approved without complete applications; however, $42,101,750 of this amount is duplicated in those loans made to
communities on the periphery of large urban areas.

USDA/OIG-A/09601-4-Te                                                                                                               Page i
                                                       SEPTEMBER 2005
                                    Based on this review, we found that RUS has not maintained its focus on rural
                                    communities without preexisting service. Although the language of the law
                                    specifies that these Federal loans and grants are for rural communities, RUS
                                    has codified and implemented a definition that cannot reliably distinguish
                                    between rural and suburban areas. Due to this ambiguous definition, the
                                    agency has issued over $103.4 million 3 in loans to 64 communities near large
                                    cities, including $45.6 million in loans to 19 planned subdivisions near
                                    Houston, Texas.

                                    Although RUS has interpreted the law 4 as permitting loans to competing rural
                                    broadband providers, regulations permit it to do so only after prioritizing and
                                    serving those communities without existing service. The agency’s current
                                    system for prioritizing underserved communities cannot, however, guarantee
                                    that communities without broadband access will be preferred to those already
                                    with access. Furthermore, we question whether the Government should be
                                    providing loans to competing rural providers when many small communities
                                    might be hard pressed to support even a single company. In these
                                    circumstances, RUS may be setting its own loans up to fail by encouraging
                                    competitive service; it may also be creating an uneven playing field for
                                    preexisting providers operating without Government assistance.

                                    The loan program’s lack of focus on rural communities without preexisting
                                    service has been paralleled by RUS’ continuing need to create a management
                                    structure able to make necessary judgments for a program of this size and
                                    scope. Since the loan and grant programs’ inception, RUS personnel have
                                    functioned without written standard operating procedures specific to the
                                    broadband programs for approving and servicing loans and grants; without
                                    standard written procedures, personnel did not always process and service
                                    grants and loans consistently and correctly. Due to these irregularities,
                                    $236.6 million in loans and grants intended to bring broadband service to rural
                                    communities was either not used as intended, not used at all, or did not
                                    provide the expected return in service.

                                    Though the Broadband Grant and Loan Programs serve similar needs, RUS
                                    has kept the programs separate, resulting in one group not always knowing
                                    what the other is doing. In such a situation, loans and grants may be
                                    unintentionally issued to the same communities, creating competition where
                                    none is wanted. In one case, for instance, a grant for $383,284 was approved
                                    for a community that had already received a broadband loan, even though
                                    grant instructions forbid such duplication. 5 Coordinating these two separate
                                    programs has been a challenge for RUS, especially since its database does not
                                    contain all relevant broadband grant and loan information and does not
                                    facilitate communication between the programs. Without a complete and


3
  See footnote 1.
4
  Public Law 107-171, dated May 13, 2002.
5
  Federal Register, Vol. 67, No. 130, “Notice of Funds Availability,” dated July 8, 2002.

USDA/OIG-A/09601-4-Te                                                                                       Page ii
                                                              SEPTEMBER 2005
                  accurate information system, management cannot make program decisions
                  based on the best information available.

                  We conclude that RUS needs to return these programs’ focus to the rural
                  communities most in need of Government assistance, and to correct structural
                  problems in its administration of the Broadband Grant and Loan Programs.
                  Until these changes are made, RUS cannot be confident that Federal funds are
                  being used to bring broadband service to those rural communities most in need
                  of assistance.

Recommendations
In Brief           We recommend that RUS seek an Office of the General Counsel (OGC)
                   opinion to clarify its definition of eligible rural area to more effectively
                   implement the statutory requirements.

                   RUS should create a unified management structure capable of effectively
                   administering the broadband programs. That management structure should
                   include an informational management system sufficient to the programs’
                   needs, as well as specific written procedures for approving and servicing
                   loans and grants.

                   RUS should recover $30.4 million in defaulted loans, and $1.9 million in
                   grants issued to a company that deviated from its grant agreement. In
                   addition, the agency should deobligate $762,226 in grant funds approved to
                   the same company.

Agency Response

                    RUS stated that its interpretation of the statutes resulted in definitions of
                    “rural area” acceptable to OGC, and that it was clearly Congress’s position
                    that this definition be as broad as possible to cover as many rural citizens as
                    possible. Further, even if OGC were to opine that the agency could restrict
                    the definition narrower than Congress intended, it would still be a matter of
                    policy as to what restrictions, if any, should be imposed.

                    RUS is unifying some parts of its management structure for grants and loans,
                    upgrading its information management system, and developing written
                    guidance for the programs to be implemented by March 30, 2006.

                    RUS transferred the six defaulted loans totaling $30.4 million to its division
                    responsible for working with borrowers in default and recovering
                    outstanding loan balances. The division is currently working with the
                    borrowers. Also, RUS is in the process of recovering the $1.9 million in
                    grant funds that was not accounted for properly, and has suspended advances
                    of remaining funds to company B while the situation is being reviewed.



USDA/OIG-A/09601-4-Te                                                                      Page iii
                                   SEPTEMBER 2005
OIG Position

                    We fully understand that the responsibility of determining how broadly or
                    narrowly “rural” should be defined lies with RUS management. Our
                    recommendation neither states nor implies that RUS should make the
                    definition “narrower than Congress intended”; instead, OIG maintains that
                    Congress’s current language was meant to serve only as a broad definition
                    for bringing broadband service to rural citizens, and that the clear purpose
                    behind the program was to fund service to the truly rural. We do not believe
                    Congress foresaw that this broad definition might be used to justify funding
                    loans to affluent suburban communities while other more rural communities
                    remained underserved. By focusing this definition—if OGC concludes that it
                    may do so—RUS will bring the broadband programs in line with the
                    Congressional purpose of serving rural areas that would not, without
                    Government assistance, have access to broadband.

                    To achieve management decision, RUS needs to obtain a written opinion
                    from OGC concerning whether RUS can revise its definition of an eligible
                    rural area to more fully correspond to the law’s purpose. If OGC agreed with
                    RUS in prior correspondence that the current definition of rural is the best
                    possible, RUS should also provide OIG with documentation supporting that
                    decision.

                    We concur with the management decisions for developing and implementing
                    written guidance for the Broadband Grant and Loan Programs. For the most
                    part, we agree with the other planned corrective actions. However, to reach
                    management decision on the other issues, we will need further
                    documentation and timeframes for implementation. Further documentation
                    and actions needed are described in the OIG Position sections of the report.




USDA/OIG-A/09601-4-Te                                                                   Page iv
                                  SEPTEMBER 2005
Abbreviations Used in This Report


CFR                 Code of Federal Regulations
DM                  Departmental Manual
FY                  Fiscal Year
GAO                 Government Accountability Office
GFR                 General Field Representative
OGC                 Office of the General Counsel
OIG                 Office of Inspector General
RUS                 Rural Utilities Service
2002 Farm Bill      Farm Security and Rural Investment Act of 2002




USDA/OIG-A/09601-4-Te                                                Page v
                                    SEPTEMBER 2005
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ....................................................................................................... v

Background and Objectives ................................................................................................................... 1

    Section 1. Program Focus .................................................................................................................. 6

        Finding 1             RUS Should Develop a More Precise Definition of “Rural Area” ......................... 6
                                  Recommendation 1 ........................................................................................ 12
                                  Recommendation 2 ........................................................................................ 13
        Finding 2             RUS Needs Stronger Controls to Prioritize Communities Without
                              Broadband Access ................................................................................................. 13
                                  Recommendation 3 ........................................................................................ 16
                                  Recommendation 4 ........................................................................................ 17
                                  Recommendation 5 ........................................................................................ 17

    Section 2. Administration and Management Controls ................................................................ 19

        Finding 3             RUS Needs Controls Over the Approval and Servicing of Broadband Grants
                              and Loans .............................................................................................................. 19
                                  Recommendation 6 ........................................................................................ 25
                                  Recommendation 7 ........................................................................................ 26
                                  Recommendation 8 ........................................................................................ 27
                                  Recommendation 9 ........................................................................................ 28
                                  Recommendation 10 ...................................................................................... 28
                                  Recommendation 11 ...................................................................................... 29
                                  Recommendation 12 ...................................................................................... 29
        Finding 4             RUS Needs to Unify Its Administration of Broadband Grants and Loans ........... 30
                                  Recommendation 13 ...................................................................................... 33
                                  Recommendation 14 ...................................................................................... 34

Scope and Methodology........................................................................................................................ 36

Exhibit A – Summary of Monetary Results ....................................................................................... 39
Exhibit B – Houston, Texas, City Map and Vicinity ......................................................................... 40
Exhibit C – Homes Serviced by Company A...................................................................................... 42
Exhibit D – Towers Misrepresented in Company B’s Grant Applications ..................................... 43
Exhibit E – Agency Response............................................................................................................... 44




USDA/OIG-A/09601-4-Te                                                                                                                         Page vi
                                                            SEPTEMBER 2005
Background and Objectives
Background                                 The Broadband Grant and Loan Programs were created to help rural
                                           communities enjoy the same quality and range of telecommunications
                                           services available to urban and suburban communities. The Rural
                                           Utilities Service (RUS) administers the programs designed to provide
                                           these services.

                                           Broadband Grant and Loan Programs

                                           Broadband Pilot Loan Program

                                           Amendments to the Distance Learning and Telemedicine Program in
                                           fiscal year (FY) 2001 authorized a Broadband Pilot Loan Program to
                                           provide funding for construction and operation of systems and facilities
                                           providing broadband services to rural areas. 6 Treasury rate loan funds
                                           totaling $100 million were made available, through a 1-year pilot
                                           program, to encourage telecommunications carriers to provide broadband
                                           service to rural consumers where such service had not existed. 7 The
                                           Broadband Pilot Loan Program was extended in FY 2002 with
                                           $80 million in loan funds. 8 As of March 2005, RUS had advanced funds
                                           for 24 of 28 approved loans totaling approximately $119.4 million. 9 For
                                           the other $60.6 million, about $6.8 million was cancelled and
                                           $53.8 million had not been advanced (see table 2).

                                           2002 Farm Bill Broadband Loan Program

                                           In FY 2003, RUS established the Rural Broadband Access Loan and
                                           Loan Guarantee Program, as authorized by the Farm Security and Rural
                                           Investment Act of 2002 (2002 Farm Bill). 10 Section 6103 of the
                                           2002 Farm Bill states that the Secretary shall make available funding
                                           levels for 2002 through 2007, and the funds would remain available until
                                           expended. It further states that the funds would be used through loans
                                           and loan guarantees to provide funds for costs of construction,
                                           improvement, or acquisition of facilities and equipment for broadband
                                           service in eligible rural communities. It defines rural communities as
                                           those with fewer than 20,000 inhabitants, as determined by the Census
                                           Bureau, and not located in a Standard Metropolitan Statistical Area. 11
                                           The 2002 Farm Bill also defines the types of loans available. Further, the
                                           bill states that the Secretary shall give priority to eligible rural


6
  Public Law 106-387,114 Stat. 1549A-22, dated October 28, 2000.
7
  Federal Register, Vol. 65, No. 234, “Notice of Funds Availability,” dated December 5, 2000.
8
  Federal Register, Vol. 67, No. 15, “Notice of Funds Availability,” dated January 23, 2002.
9
  Of these loans, one was canceled.
10
   Public Law 107-171, dated May 13, 2002.
11
   The requirement of not being in a Standard Metropolitan Statistical Area was removed by the Consolidated Appropriations Act of 2004. See Finding 1
for a fuller history of this definition.

USDA/OIG-A/09601-4-Te                                                                                                                      Page 1
                                                           SEPTEMBER 2005
                                            communities in which broadband service is not available to residential
                                            customers.

                                            Broadband Pilot Grant Program

                                            Amendments to the Distance Learning and Telemedicine Program in
                                            FY 2002 authorized RUS to establish a Rural Broadband Pilot Grant
                                            Program. 12 These grant funds were for broadband transmission service in
                                            extremely rural, lower-income communities for the purpose of
                                            stimulating economic development and enhancing education and health
                                            care opportunities.

                                            In FY 2002, RUS allocated $20.8 million to the program but received
                                            more than 300 applications requesting over $185 million. 13 Only the
                                            40 highest-scoring applications were awarded grant funds in FY 2002,
                                            fully using the $20.8 million. 14 Because of the overwhelming response,
                                            RUS did not solicit additional applications, but used its FY 2003
                                            appropriation ($11.3 million) to fund an additional 34 eligible projects
                                            submitted in FY 2002. As of March 2005, 54 recipients drew advances
                                            of over $12.8 million of grant funds, with over $19.3 million
                                            unobligated.

                                            Community Connect Grant Program

                                            On July 28, 2004, RUS announced its Broadband Grant Program 15
                                            application window through September 13, 2004. 16 The purpose of the
                                            program is to provide financial assistance in the form of grants to eligible
                                            applicants that will provide, on a “community-oriented connectivity”
                                            basis, broadband transmission service that fosters economic growth and
                                            delivers enhanced educational, health care, and public safety services.
                                            RUS will give priority to rural areas it believes have the greatest need for
                                            broadband transmission services. The grantees that receive broadband
                                            grants must (1) serve a rural area where broadband transmission service
                                            does not currently exist, to be verified by RUS before awarding the
                                            grant; and (2) serve one community recognized in the latest U.S. Census.
                                            Communities that are not recognized in the U.S. Census located in the
                                            contiguous areas outside the recognized communities’ boundaries can be
                                            included in the applicant’s proposed service area, but must be supported
                                            by documentation acceptable to RUS. 17




12
   Referred to by RUS in its funding notice as “community-oriented connectivity.”
13
   Federal Register, Vol. 67, No. 130, dated July 8, 2002, plus funds authorized for the Dial-up Internet Program.
14
   The applications were scored based upon the rurality of the projects (up to 40 points), the economic need of the projects (up to 20 points, then later
changed to 30 points), and the benefits derived from the proposed service (up to 30 points).
15
   Referred to in the final notice as the Community Connect Grant Program.
16
   Federal Register, Vol. 69, No.144, “Notice of Solicitation of Applications,” dated July 28, 2004.
17
   Title 7, Code of Federal Regulations (CFR), section 1739.11, dated July 28, 2004.

USDA/OIG-A/09601-4-Te                                                                                                                          Page 2
                                                            SEPTEMBER 2005
                                            Additionally, Federal regulations state that the applicant must contribute
                                            a matching contribution, which is at least 15 percent of the grant amount
                                            requested. 18 Applicants were required to submit an Application for
                                            Federal Assistance form by the FY 2004 deadline. RUS is to award
                                            grants competitively using the scoring guidelines in Federal regulations,
                                            and rank all complete applications received within the established
                                            timeframes. 19

                                            RUS obligated $8.9 million for 16 broadband grants in 2004. RUS has
                                            announced that $8.9 million is available for broadband grants in 2005.

                                       Table 2: Funding and Advances for the Loan and Grant Programs
                                                                                                    CANCELLED
                                                                             ADVANCED                                      UNLIQUIDATED
     PROGRAM                AUTHORIZED               FUNDED                                          FUNDING
                                                                             AS OF 3/8/05                                    AS OF 3/8/05
                                                                                                    AS OF 3/8/05
FY 2001 –
Pilot Loan                         $100,000,000           $100,000,000             $70,531,811           $152,669***                $29,315,520
FY 2002 –
Pilot Loan                          $80,000,000            $80,000,000             $48,904,251         $6,640,295***                $24,455,454
FY 2003 –
Loan                               $56,263,000*            $56,263,000             $26,420,124                                      $29,842,876
FY 2004 –
Loan                             $602,946,931*            $602,946,931             $23,050,335                                     $579,896,596
FY 2005 –
Loan                            $2,078,975,023*          $14,957,000+                       $0                                      $14,957,000
FY 2002 –
Pilot Grant                         $20,000,000         $20,832,278**               $7,795,191                                      $13,037,087
FY 2003 –
Pilot Grant                         $10,000,000         $11,307,136**               $5,058,244                                       $6,248,892
FY 2004 -
Grant                                $9,000,000             $8,864,532                      $0                                       $8,864,532
FY 2005 -
Grant                              $8,900,000++
       TOTAL                   $2,966,084,954           $895,170,877             $181,759,956            $6,792,964               $706,617,957

* Authorized funding is a combination of mandatory and discretionary funding. Unobligated funds from one fiscal year may be carried forward
for obligation in more than one year.
** Amount represents the total authorized for the Broadband Pilot Grant Program plus funds authorized for the Dial-up Internet Program,
which authorized a combined account.
*** $152,669 was rescinded because borrower received a loan under a special 9/11 program, $2,104,000 was cancelled because the entity decided
not to provide the service, and $4,536,295 was cancelled because the borrower decided in 2004 to use a Farm Bill loan.
+ FY 2005 is as of March 10, 2005.
++ RUS published a Notice of Solicitation of Application on March 30, 2005, with an application deadline of May 31, 2005.


                                            Outreach

                                            RUS has conducted a number of outreach activities since 2003 designed
                                            to disseminate knowledge of the broadband programs. We did not
                                            perform reviews or tests to determine the effectiveness of this outreach.
                                            A summary of outreach performed for each program is presented below.




18
     7 CFR 1739.14, dated July 28, 2004.
19
     7 CFR 1739.17, dated July 28, 2004.

USDA/OIG-A/09601-4-Te                                                                                                                Page 3
                                                        SEPTEMBER 2005
                        Outreach for Broadband Loan Program

                        RUS conducted two symposiums in 2003, as well as nine workshops
                        from June 22, 2004, to March 4, 2005. The symposiums were held in
                        Dallas, Texas, in March 2003, and in Minneapolis, Minnesota, in
                        April 2003.

                        Workshops were held in the following cities and States:

                                   •   Harrisonburg, Virginia
                                   •   Manchester, New Hampshire
                                   •   St. Louis, Missouri
                                   •   Chicago, Illinois
                                   •   Philadelphia, Pennsylvania
                                   •   Biloxi, Mississippi
                                   •   Portland, Oregon
                                   •   Helena, Montana
                                   •   Phoenix, Arizona

                        Attendees were mostly from these nine States; however, most of the
                        other continental States were represented at the workshops.

                        RUS advertised the workshops on its webpage and through General Field
                        Representatives (GFR) and Rural Development State Office personnel
                        contacts, as well as through press releases in industry and broadband
                        association newsletters.

                        Outreach for Community Connect Grant Program

                        RUS offers information regarding its Community Connect Grant
                        Program during scheduled conventions and on its website. RUS National
                        Office officials attended three public telecommunications conventions:
                        the Western Telecom Alliance conventions are held twice a year while
                        the Eastern Rural Telecom Association convention is held annually. RUS
                        officials attended the Western Telecom Alliance conventions in
                        Las Vegas, Nevada, April 26-29, 2004, and in Dallas, Texas,
                        September 13-15, 2004. The third convention was the Eastern Rural
                        Telecom Association convention held in Atlantic City, New Jersey,
                        August 18-20, 2004. During these conventions, RUS officials gave
                        presentations that covered the Community Connect Grant Program and
                        held individual meetings with attendees to discuss the program.

                        Additionally, RUS conducts an Engineering and Management Seminar
                        every 2 years. Attendees include State representatives, as well as RUS
                        borrowers, consultants, contractors, regulators, and others. RUS field
                        staffs conduct smaller, informal workshops, as needed or requested, with
                        interested groups in the communities they serve. The field staff also
USDA/OIG-A/09601-4-Te                                                                    Page 4
                                   SEPTEMBER 2005
                        performs outreach via the telephone and meetings. The number of GFR
                        outreach activities varies; however, RUS officials estimate at least two
                        activities per field staff per year, covering all the States. All of the
                        outreach activities are advertised by RUS, the Rural Development State
                        offices, and the GFRs.

   Objective            The objective was to assess RUS’ management controls over the
                        Broadband Grant and Loan Programs in order to determine the
                        regulatory compliance and appropriateness of grant and loan usage.




USDA/OIG-A/09601-4-Te                                                                    Page 5
                                  SEPTEMBER 2005
Section 1. Program Focus

                                        RUS has not exclusively served those rural communities most requiring
                                        Federal assistance to obtain access to broadband technologies. Because RUS’
                                        definition of “rural area” is too broad to distinguish usefully between
                                        suburban and rural communities, the agency has issued over $103.4 million
                                        in grants and loans (nearly 12 percent of $895 million in total program funds)
                                        to communities near metropolitan areas. In addition, RUS’ current selection
                                        process cannot guarantee that areas lacking service will receive priority over
                                        areas where a borrower is merely upgrading service or entering into
                                        competition with preexisting providers. Though the law does not explicitly
                                        forbid issuing loans to communities with preexisting service, we question
                                        whether the Broadband Loan Program should be providing funds for
                                        competition in many of the communities served, while other communities go
                                        entirely without service.



Finding 1                                RUS Should Develop a More Precise Definition of “Rural Area”

                                         Although RUS is charged with issuing loans for the development of
                                         broadband services in rural areas, the definition RUS uses to identify these
                                         areas is too broad to distinguish between rural communities and affluent
                                         suburbs near major metropolitan areas. In order not to exclude rural
                                         communities located in the same county as large cities, the law defines
                                         “rural area” broadly enough that bedroom communities on the outskirts of
                                         metropolitan areas can be considered eligible. When RUS implemented this
                                         law, it did not clarify the definition to distinguish between rural and
                                         suburban communities. Due to the initial definition’s ambiguity and RUS’
                                         subsequent codification of that ambiguity to clarify the law’s intent,
                                         64 communities near large cities received loans and grants totaling
                                         $103.4 million. 20 At the end of our fieldwork, two additional loan
                                         applications totaling $26.4 million were pending for communities near
                                         Houston, Texas, and Los Angeles, California.

                                         Variants in the Statutory Definition of “Rural Area”

                                         Three different statutory definitions of “rural area” have been advanced over
                                         the history of the Broadband Loan Programs.

                                         On October 28, 2000, Congress authorized funds for a pilot program to
                                         finance broadband transmission and local dial-up Internet service in areas
                                         meeting the definition of “rural area” used by the Distance Learning and

20
     $106,155,452 was loaned for this purpose; however, $2,743,554 of this amount is duplicated in the loans in default discussed in Finding 3.


USDA/OIG-A/09601-4-Te                                                                                                                             Page 6
                                                                SEPTEMBER 2005
                                      Telemedicine Program. 21 That definition distinguishes between
                                      exceptionally rural areas (fewer than 5,000 inhabitants), rural areas (between
                                      5,000 and 10,000), and mid-rural areas (between 10,000 and 20,000). 22
                                      RUS announced that it would consider as eligible communities of 20,000 or
                                      fewer inhabitants where services did not already exist. 23

                                      On May 13, 2002, the Farm Security and Rural Investment Act tightened
                                      this definition by restricting eligible communities to any incorporated or
                                      unincorporated place that has fewer than 20,000 inhabitants, based on the
                                      most recently available population data of the Bureau of the Census. Such
                                      communities were also restricted to those outside any standard metropolitan
                                      statistical area. 24 This narrower definition effectively prohibited broadband
                                      loans to suburban communities.

                                      On January 23, 2004, however, the FY 2004 Appropriations Act broadened
                                      the definition again. In order to avoid excluding rural communities located
                                      in counties near larger cities, the metropolitan statistical requirement was
                                      dropped. An eligible community was henceforth defined as any incorporated
                                      or unincorporated place with fewer than 20,000 inhabitants, based on the
                                      most recent available population statistics of the Bureau of the Census. 25 In
                                      effect, this definition is identical to the October 28, 2000, definition with the
                                      exception that loans could now be issued to areas with preexisting service.
                                      (See Finding 2.)

                                      RUS’ Implementation of the Statute

                                      On November 17, 2004, the Congressional Rural Caucus’s Committee
                                      questioned the RUS Deputy Administrator relating to the agency’s
                                      administration of broadband loans. The committee’s questions illustrate the
                                      breakdown in communication that occurred between the writing of this law
                                      and its implementation and suggest widespread confusion about the law’s
                                      scope. One legislator, for instance, suggested that the law allowed RUS to
                                      exclude communities based on their affluence; another believed it helped
                                      startup companies instead of established broadband providers; a third
                                      suggested that the programs ought not to be funding competitive services at
                                      all.

                                      All these notions are not, in fact, included in the statute RUS must follow, as
                                      the Deputy Administrator indicated; however, in his responses, the Deputy
                                      Administrator resorted to the letter of the law to explain why loans were
                                      made to suburban communities. Yet, in all three definitions of “rural area”
                                      discussed above, the statute’s language clearly states that these loans are for
                                      rural, not suburban communities; in no way can that language be used to

21
   Public Law 106-387, dated October 28, 2000.
22
   7 CFR 1703.126(b)(2)(A-C), dated January 1, 2001.
23
   Federal Register, Vol. 65, No. 234, dated December 5, 2000.
24
   Public Law 107-171, section 601, b. 2., dated May 13, 2002.
25
   Public Law 108-199, section 772, dated January 7, 2003.

USDA/OIG-A/09601-4-Te                                                                                           Page 7
                                                            SEPTEMBER 2005
                                        justify loans to suburban development projects. Though Congress’s
                                        definition of “rural” was broad, the agency did not, as part of its
                                        implementation of the law, codify a definition narrow enough to draw
                                        necessary distinctions and serve as a practical foundation for the programs.
                                        Instead, RUS codified a definition applying to any definable tract of land
                                        where fewer than 20,000 people live. Because this definition might
                                        conceivably be applied to an incomplete development project in a
                                        metropolitan area—where no one lives since the project is incomplete—it is
                                        inadequate to distinguish “rural” from “suburban.”

                                        This, nevertheless, was the definition RUS proceeded to use as the basis for
                                        the broadband programs, with serious negative consequences. In one of the
                                        more highly publicized cases, RUS issued loans to a company providing
                                        broadband access to affluent suburban communities a few miles outside of
                                        Houston, Texas.

                                        Affluent Suburban Developments Receive Loans

                                        Following the October 28, 2000, definition, RUS issued a pilot loan to
                                        company A of almost $22.9 million to provide broadband service for
                                        12 undeveloped subdivisions on the outskirts of Houston—the largest city in
                                        Texas and the fourth largest in the United States. None of the
                                        12 subdivisions was located within the boundaries of any community having
                                        a population greater than 5,000 inhabitants. According to the definition,
                                        then, they were exceptionally rural areas.

                                        Although the population of the subdivisions allowed them to be
                                        characterized as rural, in most significant ways they were not rural at all. All
                                        12 of the subdivisions in question were within a 10-mile radius of Houston’s
                                        city limits. 26 Also, four of the subdivisions abutting Houston were on the
                                        outskirts of three other cities with populations over 20,000. 27 Nine of the
                                        subdivisions were within the extraterritorial jurisdiction 28 of Houston. One
                                        subdivision was within the jurisdiction of Missouri City, Texas, which is
                                        also within the 5-mile radius of Houston. 29 That the subdivisions came
                                        under the legal authority of nearby cities indicates that their classification as
                                        rural communities was questionable. Because of their location and property
                                        value, a RUS official stated that these subdivisions would probably be
                                        incorporated into Houston in the near future.

                                        The subdivisions’ proximity to urban areas also made broadband services
                                        available to them through means other than the pilot loan program.
                                        Company A provides broadband services to three other upscale subdivisions
                                        in the Houston area without Government funds. 30 In fact, one of the

26
   See exhibit B, pages 1 and 2, note 1.
27
   See exhibit B, pages 1 and 2, note 2.
28
   Extraterritorial jurisdiction is the legal ability of a government to exercise authority beyond its normal boundaries.
29
   See exhibit B, pages 1 and 2, note 3.
30
   See exhibit B, pages 1 and 2, note 4.

USDA/OIG-A/09601-4-Te                                                                                                       Page 8
                                                                SEPTEMBER 2005
                                      subdivision’s developers decided not to wait for the company’s Government
                                      loan to be approved and contracted with another telecommunications
                                      company to install broadband services. 31 These facts suggest that company
                                      A could provide services to these developments without Government
                                      assistance, and that the services were readily available to these communities
                                      even if they did not exist at the moment of the company’s application.

                                      We concluded that, in this case, the Government’s loan was not being used
                                      to extend service to rural areas that would not otherwise receive access to
                                      broadband, but instead to subsidize a company that would have provided the
                                      same service without the loan. The fact that the planned communities
                                      receiving the service are, in this instance, quite affluent (see exhibit C) has
                                      provoked considerable negative public comment.

                                      Approving this sort of loan also meant refusing other loans to communities
                                      RUS would ordinarily serve as part of its mission to extend utilities to rural
                                      areas. Such communities will remain less attractive to providers than
                                      affluent suburbs, especially if subsidies are created to increase artificially
                                      the value of already desirable markets. We reviewed 38 letters of rejection
                                      sent to companies RUS turned down due to lack of funds the year the initial
                                      loan was made for the Houston provider: 4 of these proposals were for small
                                      rural communities well outside urban areas. Even farmers living in close
                                      proximity to the planned developments near Houston were excluded. One
                                      agency official explained their exclusion by citing the “economy of scale”
                                      needed to justify extending the broadband network to include their
                                      residences. “We want to deploy broadband where there is no broadband,”
                                      the official stated. “There must be economies of scale to make the loan
                                      financially feasible.” 32 Yet the loan programs appear to have been created to
                                      help extend service to areas where the economy of scale would not
                                      ordinarily suffice to justify service.

                                      After the Broadband Pilot Loan Program had ended, RUS approved an
                                      additional $22.7 million loan under the 2002 Farm Bill Loan Program to
                                      company A for broadband services in seven additional subdivisions near
                                      Houston. Because this loan was issued under the January 23, 2004,
                                      definition of “rural,” the restriction regarding metropolitan statistical areas
                                      was no longer in effect. All seven subdivisions were within Houston’s
                                      metropolitan statistical area.

                                      Our review and analysis 33 of all approved and pending applications from
                                      2001-2005 34 identified other communities similar to the suburban Houston
                                      subdivisions discussed above. In its loan program, RUS issued 11 other
                                      loans totaling over $60.1 million to 43 communities near 13 other large 35

31
   See exhibit B, pages 1 and 2, note 5.
32
   Barry Shlachter, “High-end Houston-area homes to get broadband courtesy of federal aid,” Fort Worth Star-Telegram, October 13, 2004.
33
   See the Scope and Methodology for a complete description.
34
   As of March 10, 2005.
35
   We define “large” cities as those having a population of greater than 200,000.

USDA/OIG-A/09601-4-Te                                                                                                                     Page 9
                                                           SEPTEMBER 2005
                    cities in 10 different States; 2 loan applications totaling $26.4 million for
                    communities near Houston and Los Angeles were also pending. In the pilot
                    grant program, we identified two grants issued in September 2003 totaling
                    $477,705 for two communities located near large cities. All of these
                    45 communities possessed 1 or more of the 3 criteria characterizing the
                    Houston subdivisions—proximity to a major metropolitan area, relatively
                    affluent inhabitants, and home values exceeding the national and State
                    averages. None of the 2004 grants, however, were for communities near
                    large cities.

                    Definition of “Rural Area” Needs Revision to Meet Program Objectives

                    As the loans issued to company A in Houston demonstrate, RUS has
                    implemented several definitions sharing similar shortcomings. First, these
                    definitions have relied only on population for defining what is rural and
                    what is not. Second, they are vague about the geographical space over which
                    that population may be distributed. Third, they do not address the
                    Government’s role in subsidizing broadband access, that is to say, to help
                    bring service to communities unattractive to private investment under
                    ordinary market conditions. RUS should revise its definition of “rural area”
                    to take into account the following observations.

                           Population

                           Population totals alone are not a viable way of determining if an area
                           is urban or rural. In the report RUS issued jointly in 2000 with the
                           National Telecommunications and Information Administration, it
                           concluded that classifying as rural any community with a small
                           population outside a major metropolitan area is inaccurate. Such
                           definitions “may include areas that are only temporarily rural, such
                           as suburban developments with brand new utilities built relatively
                           close to an urban or suburban area. These areas tend to be relatively
                           affluent, and their characteristics are more like the adjacent
                           metropolitan area than what one ordinarily thinks of as rural. Rural
                           statistics can be misleading if these variations are not considered.”
                           Like the definition used for issuing broadband loans, the definition
                           criticized above identifies rural communities strictly based on their
                           population. Just as RUS concluded that designations made solely
                           from population statistics are misleading, we conclude that
                           classifying these Houston-area subdivisions as eligible for rural
                           broadband loans was misleading.

                           A more nuanced statistical measurement might be used to identify
                           eligible rural areas. After finding similar problems with identifying
                           rural communities solely on the basis of population, a recent
                           Government Accountability Office (GAO) audit suggested, as an
                           alternative, using the Census Bureau’s urbanized areas and urban

USDA/OIG-A/09601-4-Te                                                                    Page 10
                                  SEPTEMBER 2005
                                                 clusters, which are density-based measures that provide finer-scale
                                                 information. 36 Another alternative might involve correlating
                                                 population density with distance from urban areas. Because most
                                                 suburban developments are near cities, correlating these two
                                                 characteristics might yield a reasonable determination of whether or
                                                 not an area should be considered rural.

                                                 Geographic Space

                                                 Past definitions have been vague about whether these loans are
                                                 intended for preexisting communities or simply for areas or places.
                                                 An undeveloped piece of land with no inhabitants is “rural” under
                                                 the current definition, but if these loans are intended for
                                                 communities, then a higher standard could be set, one that might
                                                 include legal jurisdiction.

                                                 Purpose of the Loans

                                                 If these loans are meant to stimulate the development of broadband
                                                 access to areas that would not ordinarily be served by an
                                                 unsubsidized market, then that purpose should be made clear. As
                                                 part of the loan approval process, RUS should determine if the area
                                                 is serviceable under ordinary market conditions. If so, then the loan
                                                 could be refused and the market could take its course; if not, then a
                                                 loan could be approved to connect a community that would not
                                                 otherwise have access. Including such language in the definition
                                                 would effectively prevent loans like those made in suburban
                                                 Houston.

                                                 General Field Representative’s (GFR) Role

                                                 More authority might be vested in the GFR to determine whether a
                                                 borderline community qualifies as rural or not. Though GFRs should
                                                 certainly be issued more specific guidelines, their assessment might
                                                 help RUS arrive at a correct decision in unusual circumstances.

                                       Until RUS administers the program with a more precise definition of “rural
                                       area,” more loans will likely be issued to suburban development projects.
                                       RUS has recently created a fourth definition of “rural area”; however, this
                                       new definition makes “area” more general (any identifiable place that has
                                       fewer than 20,000 inhabitants) and still considers population as its sole
                                       standard. This revision will not, in our opinion, help prevent loans intended
                                       for rural areas from being issued to affluent suburbs.




36
     GAO, “Rural Housing: Changing the Definition of Rural Could Improve Eligibility Determinations,” December 2004 (GAO-05-110).

USDA/OIG-A/09601-4-Te                                                                                                               Page 11
                                                            SEPTEMBER 2005
                    We conclude that RUS should either revise the definition to exclude
                    suburban communities from the broadband program or, if this should not
                    prove feasible, seek legislative clarification of the communities the program
                    is meant to serve.

Recommendation 1

                   RUS should obtain an Office of the General Counsel (OGC) opinion
                   concerning its ability to restrict the law’s definition of an eligible rural area.

                   Agency Response.

                    In all three cases involved with developing the definition for a rural area as
                    defined by the statutes in place at that time, the Telecommunications
                    Program worked very closely in developing the definition with OGC. The
                    Telecommunications Program had numerous discussions with OGC on the
                    interpretation of the statutes, and the results were definitions agreed to by
                    both the Telecommunications Program and OGC. Even if OGC were to
                    opine that the agency could restrict the definition narrower than Congress
                    intended, it would still be a matter of policy as to what restrictions, if any,
                    should be imposed.

                   OIG Position.

                    We fully understand that the responsibility of determining how broadly or
                    narrowly “rural” should be defined lies with RUS management. Our
                    recommendation neither states nor implies that RUS should make the
                    definition “narrower than Congress intended”; instead, OIG maintains that
                    Congress’s current language was meant to serve only as a broad definition
                    for bringing broadband service to rural citizens, and that the clear purpose
                    behind the program was to fund service to the truly rural. We do not believe
                    Congress foresaw that this broad definition might be used to justify funding
                    loans to affluent suburban communities while other more rural communities
                    remained underserved. By focusing this definition—if OGC concludes that it
                    may do so—RUS will bring the broadband programs in line with the
                    Congressional purpose of serving rural areas that would not, without
                    Government assistance, have access to broadband.

                    To achieve management decision, RUS needs to obtain a written opinion
                    from OGC concerning whether RUS can revise its definition of an eligible
                    rural area to more fully correspond to the law’s purpose. If OGC agreed with
                    RUS in prior correspondence that the current definition of rural is the best
                    possible, RUS should also provide OIG with documentation supporting that
                    decision. RUS should provide timeframes for accomplishing these actions.




USDA/OIG-A/09601-4-Te                                                                       Page 12
                                   SEPTEMBER 2005
Recommendation 2

                   If OGC concludes that RUS may restrict the law’s definition of an eligible
                   rural area, then RUS should develop and implement a definition of an
                   eligible rural area that includes, as part of its criteria, a community’s
                   population density and distance from metropolitan areas. If OGC concludes
                   that RUS may not, on its own authority, restrict the definition, then RUS
                   should seek legislation to clarify the program’s definition of an eligible rural
                   area.

                   Agency Response.

                    Again, as stated above, it would still be a matter of policy as to what
                    restrictions, if any, should be imposed, regardless of OGC’s legal opinion.
                    As the audit report indicates, the FY 2004 Appropriations Act lifted the
                    restriction of the 2002 Farm Bill that precluded the Telecommunications
                    Program from considering areas eligible for funding that were included in
                    any standard metropolitan statistical area. Prior to this, the
                    Telecommunications Program did not fund communities that this report now
                    brings into question. It was clearly Congress’s position that the definition of
                    a rural area be as broad as possible to cover as many rural citizens as
                    possible.

                   OIG Position.

                    RUS’ response to the recommendation is unclear. To reach management
                    decision, RUS needs to acknowledge whether it will commit to focusing the
                    definition of an eligible rural area as described in our report. If the
                    OGC opinion received to address Recommendation 1 of our report
                    determines that the agency does not have the authority to change the
                    definition of rural, then RUS needs to specifically acknowledge whether it
                    will commit to seeking legislative clarification of the program’s definition of
                    an eligible rural area. RUS should provide OIG timeframes for the planned
                    actions. (Also see OIG Position for Recommendation 1.)


Finding 2           RUS Needs Stronger Controls to Prioritize Communities Without
                    Broadband Access

                    RUS has not ensured that communities without broadband service receive
                    first priority for loans. Although RUS does have a system in place for
                    prioritizing loans to communities without access to broadband services, that
                    system lacks a cutoff date and functions as a rolling selection process—
                    priorities are decided based on the applicants who happen to be in the pool
                    at any given moment. Until RUS makes loan priority decisions from the
                    entire pool of applicants for any given period of time, the agency will not
                    truly be giving preference to those communities without access. Further,

USDA/OIG-A/09601-4-Te                                                                      Page 13
                                   SEPTEMBER 2005
                                     RUS has devoted a significant portion of its resources to funding
                                     competitive service in areas with preexisting broadband access rather than
                                     expanding service to communities without access. Our sample of 11 funded
                                     loans for 2004 showed that 66 percent (159 of 240) of the associated
                                     communities (i.e., all communities associated with one loan) had existing
                                     service. These 11 loans fostered competition among service providers in
                                     42 percent of the associated communities. 37

                                     RUS Needs a Cutoff Date for Broadband Loan Applications

                                     Regulations establish three levels of priority for companies applying for
                                     broadband loans, based on the communities they propose to serve:
                                     (1) communities without broadband service; (2) communities where
                                     broadband access is available, but the quality of the service is inferior or the
                                     cost of the service not comparable to neighboring areas; (3) communities
                                     where new providers will compete with preexisting broadband companies. 38

                                     Regulations 39 also state that RUS will evaluate completed applications
                                     meeting the criteria for priority in order to expedite their processing, and
                                     evaluate the priority classification of applications on hand at least quarterly.

                                     RUS’ current system for prioritizing loans works as a rolling selection
                                     process: judgments concerning which loans will receive priority are based
                                     on the applications waiting for processing at any one time. An applicant may
                                     request priority by certifying that service is not available in any
                                     community—RUS then moves that application to the front of its queue
                                     awaiting approval. As part of the loan approval process, the agency verifies
                                     whether or not service is available in the proposed service area. If service is
                                     not available, the applicant is given first priority; if service is available, the
                                     application is denied first priority, placed in the queue by its date, and
                                     considered as a second or third priority.

                                     So long as RUS has ample funds available for all approved applications, this
                                     method of prioritizing applications will suffice. Should RUS begin
                                     approving more applications than it can fund, the current system for
                                     determining priority may result in applications of second or third priority
                                     receiving funds before those of first priority. As funds become more sought
                                     after, second- and third-priority applications might receive funds while
                                     approved first-priority applications go without.

                                     As an example, RUS might process, approve, and fund many broadband
                                     loans during the first half of an application period—some of these would be
                                     first-priority loans while others would be second and third priority. If funds

37
   RUS calculated that 31 percent of the communities involved in all approved loans since 2003 had preexisting competitive service. When RUS
calculates this figure, it only considers communities where competitive service exists and not communities where loans have been made to upgrade or
expand service.
38
   7 CFR 1738.15(c) and 7 CFR 1738.11(b), dated January 30, 2003.
39
   7 CFR 1738, Background, dated January 30, 2003.

USDA/OIG-A/09601-4-Te                                                                                                                   Page 14
                                                          SEPTEMBER 2005
                    ran out, however, and other first-priority applications were received later in
                    the period, those applications would go without funds while applications of
                    lower priority from earlier in the application period had been granted.

                    During the 2001 pilot loan program this situation occurred. Even though
                    first-in, first-out processing of applications was allowed during the pilot
                    program, it supports our scenario of what can happen when applications
                    exceed funds. Because of limited funds for the 2001 pilot loan program,
                    RUS had to turn down many applications. We reviewed 38 letters of
                    rejection and were able to contact 4 of the applicants. We found that these
                    4 applications were for extremely rural communities with no broadband
                    service that would have been classified as first priority under the current
                    system. Therefore, these communities would have received funding instead
                    of some of the less needy communities (second and third priorities) that did
                    receive funding as discussed in Finding 1.

                    We conclude that RUS’ current system for prioritizing applications cannot
                    ensure preference for communities without access to broadband, particularly
                    if more applications are approved than the agency can fund.

                    Broadband Loans Have Fostered Competition Rather Than Expanding
                    Access

                    In its statements before Congress, RUS has resorted to the letter of the law
                    to defend the practice of making loans to competing broadband providers in
                    rural areas. The law, however, states only that priority shall be given to
                    “eligible rural communities in which broadband service is not available to
                    residential customers.” RUS interpreted this language to mean that, after it
                    had served those communities without existing service, it might issue loans
                    to communities with preexisting service. The law itself, however, does not
                    mention or condone the practice of making loans to competing providers—
                    it certainly does not require RUS to make such loans.

                    In writing regulations for the loan programs, RUS codified the practice of
                    issuing loans to competing rural broadband providers, as shown in the three
                    levels of priority mentioned above. As a result of following these
                    regulations, many loans were issued to competing broadband providers:
                    RUS calculated that 31 percent of the agency’s loans served to foster
                    competition in areas with preexisting service rather than extending service
                    to communities without access. However, our sample of 11 funded loans for
                    2004 showed that 42 percent of the communities already had competing
                    providers. In some cases, loans were issued to companies in highly
                    competitive business environments where multiple providers competed for
                    relatively few customers. For example, one borrower received a
                    $15.6 million loan to expand broadband service to a North Dakota town.
                    Although the town’s population numbers just 15,527, 4 other companies
                    also were providing broadband access, some with Government assistance

USDA/OIG-A/09601-4-Te                                                                     Page 15
                                   SEPTEMBER 2005
                    and some without. Although RUS has followed its own regulations in
                    issuing these loans, questions asked by the Congressional Rural Caucus’s
                    Committee suggest that—for some lawmakers, at least—this use of Federal
                    funds contradicts the program’s primary purpose.

                    Based on our review, we also question whether the Government should be
                    loaning money for competing services. Such loans raise several troubling
                    issues. Can the sparsely populated rural areas for which these loans are
                    intended reasonably support multiple broadband service providers? RUS
                    does not conduct objective market research to determine if competing
                    providers are viable in a given community. Without such research, we found
                    that RUS may be issuing loans to companies with little chance of survival.
                    In one case, we reviewed a $4.3 million loan in default; the GFR, who had
                    not visited the area prior to the loan’s issuance, concluded after the borrower
                    defaulted that the company had failed due to competition. Approving loans
                    likely to fail would not appear to be a suitable use of Federal funds. Next,
                    what is the Government’s responsibility if, due to subsidized competition, a
                    preexisting, unsubsidized broadband provider goes out of business? If RUS
                    continues issuing loans to competing providers, it is likely this question will
                    have to be answered. Finally, from the perspective of equity, why should the
                    Government subsidize some providers in a given market and not others?

                    Based on its answers to these questions, RUS should determine if the
                    practice of issuing loans to competing providers should continue.

Recommendation 3

                    Establish and implement cutoff dates to ensure that applications are
                    evaluated for priority at least every quarter.

                    Agency Response.

                    CFR 1735.15(c) currently requires that all broadband applications that have
                    been submitted be prioritized for processing on a quarterly basis. Because of
                    the funding levels currently available for the Broadband Program, the
                    Telecommunications Program has been able to evaluate and prioritize as
                    necessary each application when it is submitted. Whenever an application
                    for an unserved area is submitted, it is processed before all other
                    applications, regardless of when the other applications were submitted.

                    OIG Position.

                    Regardless of funding levels, RUS should establish and implement cutoff
                    dates to ensure that applications are evaluated for priority at least every
                    quarter as required by its regulations, and provide OIG timeframes for such
                    actions.


USDA/OIG-A/09601-4-Te                                                                      Page 16
                                   SEPTEMBER 2005
Recommendation 4

                    Cease providing loans to competing broadband providers until RUS has
                    reviewed past loans made in competitive environments. That review should
                    determine if these loans have given funded providers an unfair financial
                    advantage over those without RUS funds, or have otherwise adversely and
                    materially affected the success of these loans.

                    Agency Response.

                    The Telecommunications Program’s implementation of the Broadband
                    Program is in accordance with the statutes that established the program.
                    Both the 2002 Farm Bill and the President’s broadband initiative identify the
                    need for competition to increase the quality of services and reduce the cost
                    of those services to the consumer.

                    OIG Position.

                    The authority initiating the pilot loan program stated that the President of the
                    United States and the United States Congress made funds available through
                    a 1-year pilot program to encourage broadband service to rural consumers
                    where such service does not currently exist. Also, the 2002 Farm Bill stated
                    the Secretary shall give priority to eligible rural communities in which
                    broadband service is not available to residential customers. Further, RUS’
                    response is unclear in addressing the recommendation. To reach
                    management decision, RUS needs to cease making loans to competing
                    broadband providers until they have completed a review to determine the
                    effect of RUS loans made in a competitive environment. RUS needs to
                    specifically acknowledge whether it will commit to performing a review to
                    determine the consequences of creating competitive environments in these
                    rural areas. RUS also should provide timeframes for the planned actions.
                    We suggest that RUS consider obtaining input and guidance on this issue
                    from its Policy Analysis and Risk Management Division and other sources,
                    as necessary, to determine the feasibility of creating competition in areas that
                    may well have problems supporting one broadband server, much less
                    several.

Recommendation 5

                    Based on the results of this review, RUS should determine if its practice of
                    issuing loans to competing broadband providers should continue and take
                    appropriate action.

                    Agency Response.

                    The Telecommunications Program will implement any changes to the statute
                    that are approved by the President and Congress.

USDA/OIG-A/09601-4-Te                                                                      Page 17
                                   SEPTEMBER 2005
                    OIG Position.

                    RUS does not need statutory change to evaluate this issue. To reach
                    management decision, RUS needs to cease making loans to competing
                    broadband providers until it has completed a review to determine the effect
                    of RUS loans made in a competitive environment. RUS needs to
                    specifically acknowledge whether it will commit to performing a review to
                    determine the consequences of creating competitive environments in these
                    rural areas. Based on the results of the review, RUS should determine if its
                    practice of issuing loans to competing broadband providers should continue
                    and take appropriate action. Also provide timeframes for the planned
                    actions. We suggest that RUS consider obtaining input and guidance on this
                    issue from its Policy Analysis and Risk Management Division and other
                    sources, as necessary, to determine the feasibility of creating competition in
                    areas that may well have problems supporting one broadband server, much
                    less several.




USDA/OIG-A/09601-4-Te                                                                    Page 18
                                   SEPTEMBER 2005
Section 2. Administration and Management Controls

                                     In the 4 years RUS has administered the Broadband Grant and Loan
                                     Programs, the agency has not adopted a management structure capable of
                                     providing those programs with unified guidance. In particular, RUS has not
                                     developed and implemented specific written procedures for approving and
                                     servicing broadband grants and loans. Due to irregularities occasioned by
                                     these control weaknesses, $236.6 million, or 26 percent of total program
                                     funds, has been used inefficiently, has not been used at all, or has not
                                     produced the expected return in service.

                                     Moreover, by keeping grants separate from the loan program, RUS has made
                                     it more difficult for administrators to arrive at a global understanding of
                                     which communities have already received Federal funds, information that is
                                     essential if RUS is to allocate its resources effectively. Similarly, the
                                     agency’s information technology does not facilitate informed program
                                     decisions for grants and loans, both before and after funds are advanced. In
                                     some cases, flaws in the current management information system have meant
                                     that RUS has provided inaccurate information regarding the broadband
                                     programs.

                                     In sum, the agency lacks the management controls necessary to ensure that
                                     communities receiving broadband funds are, in fact, those needing it most,
                                     and that those receiving grants and loans use those funds as agreed.




Finding 3                             RUS Needs Controls Over the Approval and Servicing of
                                      Broadband Grants and Loans

                                      Although RUS has administered the Broadband Loan and Grant Programs
                                      for several years, the agency has not yet established specific written
                                      procedures to supplement the implementation of regulations. RUS’ general
                                      approach to administering these programs can be described as piecemeal
                                      and patchwork—one agency official described the pilot loan program as a
                                      “very risky venture” administered through a process of “trial and error.”
                                      Following this operational approach, the agency did not institute required
                                      management controls for the consistent and correct processing and servicing
                                      of approximately $895 million in Federal broadband grants and loans. 40
                                      Agency officials generally felt, particularly given their limited resources and
                                      personnel, that their previous experience with similar programs would
                                      suffice for administering the broadband programs. Due to irregularities
                                      resulting from this decision, however, we found that $236.6 million in

40
  Instead, to govern these programs, RUS issued Notices of Funds Availability for pilot loans and grants; in January 2003, RUS published regulations for
the Broadband Loan Program, and in July 2004, it released the regulations for the Community Connect Grant Program.

USDA/OIG-A/09601-4-Te                                                                                                                       Page 19
                                                            SEPTEMBER 2005
                                    grants and loans was either used inefficiently, not used at all, or did not
                                    result in the expected return in broadband service.

                                    Departmental manuals require that GAO’s “Standards for Internal Control in
                                    the Federal Government” be used for establishing and maintaining
                                    management control systems. 41 These standards state that agencies should
                                    establish appropriate documentation for internal controls such as
                                    management directives, administrative policies, or operating manuals. 42

                                    The absence of such controls resulted in a number of irregularities in RUS’
                                    processing and servicing of grants and loans:

                                         1) $137.4 million 43 in loans was approved even though the borrowers’
                                            applications were incomplete or inaccurate;
                                         2) $2.7 million in grants was made to one company that then deviated
                                            from the planned use as stated in the grant agreement (RUS advanced
                                            over $1.9 million to this company; $762,226 in additional grants
                                            slated for the same company is at risk should it be released);
                                         3) $30.4 million in loans was in default due to inadequate servicing;
                                         4) $59.3 million in approved grants and loans has never been drawn
                                            down and used; and
                                         5) $6.8 million in cancelled loans was not put to use in a timely fashion
                                            and was therefore unavailable for future funding.

                                    In sum, we question the use of $236.6 million in broadband grants and loans.

                                    Grant and Loan Application Processing—On the whole, RUS’
                                    application review process was relatively consistent and sufficient to
                                    identify that some applications were ineligible, especially considering the
                                    absence of specific written standard operating procedures. In FY 2004, for
                                    example, RUS determined that 117 of 158 grant applications were ineligible
                                    for a variety of reasons, including multiple communities listed in the
                                    application, the absence of required budget documents, and preexisting
                                    broadband service in the community in question. For 2003 to 2005 loans,
                                    RUS questioned 67 of the 128 applications, concluding that 34 were
                                    ineligible and 33 were incomplete. The main reasons for these
                                    determinations were insufficient credit support, incomplete applications,
                                    insufficient market surveys and failure to meet financial requirements. We
                                    found, however, several instances where clear, coherent procedures would
                                    have improved RUS’ ability to administer the broadband programs.

                                         Grant Processing—Based on our review of 17 of 74 approved
                                         applications for FYs 2002 and 2003 pilot grant program and all 16 of the
                                         funded applications for FY 2004 grant program, we question the

41
   Departmental Manual (DM) 1110-2, Management Control Manual, chapter 2, section 3 – Management Control Standards, dated November 29, 2002.
42
   GAO, Standards for Internal Control in the Federal Government, Control Activities Section, dated November 1999.
43
   See footnote 2.

USDA/OIG-A/09601-4-Te                                                                                                              Page 20
                                                        SEPTEMBER 2005
                        consistency of the review process for 7 of the 17 funded pilot
                        applications and 5 of the 16 funded grant applications.

                        RUS should, in particular, specify that the same team will review all
                        applications from any given company. To score the pilot grant
                        applications, RUS establishes two-person teams consisting of a
                        RUS engineer as well as a RUS management representative. Because
                        applications from the same company were reviewed by different teams,
                        we found that discrepancies were not identified prior to the grant being
                        advanced. These discrepancies included substantive misrepresentations
                        on the part of company B (see subheading below entitled “Grants Not
                        Properly Serviced”). In each application, company B proposed to place
                        antennas on water towers for broadband services in that community.
                        However, only one application file contained pictures and addresses of
                        the correct water towers for that community. The other six files
                        contained discrepancies such as pictures of the same water towers in
                        different communities (see exhibit D). After the changes in RUS’ review
                        process were implemented in 2004, officials stated that they try to
                        ensure that the same two-person team reviews multiple applications
                        from the same applicant. Nevertheless, to ensure consistency, RUS
                        should institute this procedure in its written staff instructions.

                        GFRs’ initial visits also failed, in some instances, to determine that
                        communities already had preexisting broadband service. Though three of
                        the seven communities on company B’s applications already had access
                        to broadband, the GFR did not recognize this fact, which would have
                        rendered those applications ineligible.

                        We noted that the employees rating the FY 2004 grant applications
                        differed on applicant or project eligibility in 5 of the 16 applications in
                        our sample. RUS has comprehensive grant application checklists to
                        determine eligibility and completeness, a scoring worksheet, and a
                        section for summary comments on the project, yet the employees rating
                        applications had not received formal training for reviewing applications.
                        Instead, their training consisted of oral briefings by RUS Headquarters
                        staff. Even though these discrepancies were later corrected and the
                        correct determination made, we believe that these employees need
                        further training to consistently apply the guidelines in RUS’ review
                        guide.

                        Loan Processing—Although loan personnel processed applications
                        relatively consistently given the lack of management controls, our
                        review found two instances where specific standard operating
                        procedures would help increase program efficiency. The agency needs,
                        in particular, to institute procedures preventing incomplete or inaccurate
                        loan applications from reaching the approval committee. Based on our
                        review of 13 of 28 approved pilot loans (FYs 2001 and 2002) and 15 of

USDA/OIG-A/09601-4-Te                                                                      Page 21
                                   SEPTEMBER 2005
                                             36 approved loans for the loan program (FYs 2003 through 2005), we
                                             found problems with the approval of 2 loans totaling $137.4 million. 44
                                             One loan was approved even though the application lacked a market
                                             survey, business plan, or complete certified system design. The second
                                             loan application misrepresented the results of the provider’s market
                                             survey. 45 Until RUS possesses a complete and accurate application, it
                                             cannot assess the financial feasibility of the project, the company’s
                                             ability to pay back the loan, or whether the provided quality of service
                                             would meet the agency’s standards.

                                       Grants Not Properly Serviced—Because the agency lacks established
                                       procedures for servicing grants after they have been advanced, RUS did not
                                       maintain sufficient oversight to determine whether projects receiving grants
                                       used the funds appropriately. Until RUS services these grants in a more
                                       thorough manner, it cannot be certain that grant funds are being used to
                                       meet program goals.

                                             GFR Field Visits Inadequate—For seven pilot grants totaling
                                             $2.7 million, we found that the GFR did not perform sufficient field
                                             visits for RUS to detect that company B had submitted information
                                             conflicting with its planned use of grant funds. As a result, company B
                                             may have improperly used over $1.9 million in advanced grant funds,
                                             while the remaining $762,226 of obligated funds could be at risk if
                                             released. 46

                                             Although company B’s budget in one application showed expenditures
                                             for antennas to be erected on the community’s two water towers, the
                                             county project manager stated that company B would be “piggy
                                             backing” off existing antennas on the community’s water tower rather
                                             than installing its own. Further, the application gave two separate
                                             addresses for the two towers with a combined rent of $36,000
                                             ($18,000 each) for 2 years. Although the contracted amount for tower
                                             space remained at $36,000, company B only contracted for one tower in
                                             the community, and there was no evidence in the file showing that the
                                             borrower notified RUS of the changes. The company’s grant agreement
                                             stated that it would obtain prior written approval from RUS for any
                                             material change to the grant project including changes to the system
                                             design or scope of the work. Renting a single existing tower rather than
                                             erecting two of its own—and still paying a total rent of $36,000—
                                             constitutes, in our opinion, a material change to the system design and
                                             the scope of the work. We conclude that these deviations could have
                                             been detected through timely and thorough GFR visits and compliance
                                             reviews.


44
   See footnote 2.
45
   In the market survey, 65 percent of adult residents stated that they do not need broadband service; 75 percent stated that they would not sign up for the
service in the next year. The provider nonetheless concluded that the community wanted its services.
46
   Fund amounts are as of March 8, 2005.

USDA/OIG-A/09601-4-Te                                                                                                                          Page 22
                                                              SEPTEMBER 2005
                                             Final GFR Visits Not Always Performed—RUS considered projects
                                             complete only because all funds had been drawn down. According to the
                                             agency’s determination, seven broadband grant projects have been
                                             completed. We found, however, that only two of the required field visits
                                             were done to verify actual project completion. Thus, the agency cannot
                                             be certain that the funds drawn down were used according to the grant
                                             agreements, or that the project was completed at all.

                                             Regular Compliance Reviews Not Performed—RUS’ Program
                                             Accounting and Regulatory Analysis Section did not perform regular
                                             compliance reviews of the Broadband Grant Program as specified by
                                             Departmental regulations and GAO standards. 47 Currently, RUS does
                                             not consider that the grant program has sufficient funding to warrant
                                             regular compliance reviews; RUS officials stated that they were
                                             nonetheless instituting procedures to include these reviews.

                                             RUS had only completed compliance reviews on two grant projects; the
                                             review for one grantee (company B) was initiated because of OIG’s
                                             audit. RUS completed this review in April 2005 and determined that
                                             there were substantial findings and disallowances on all seven of the
                                             grants for company B. In all, RUS found that over $900,000 of the funds
                                             were used for profit. The use of funds for profit violated the grant
                                             agreement, and regulations require that RUS should have suspended or
                                             terminated the grant. 48 Nonetheless, the agency has not done so.

                                        Pilot Loan Funds in Default—Due to the absence of written procedures
                                        specific to the program, we found similar problems with how pilot loans
                                        were serviced after approval. Of the 28 approved pilot loans, 6 were in
                                        default with $30.4 million in outstanding principal. Had the progress of
                                        these projects been timely and thoroughly monitored, RUS might have been
                                        able to avoid advancing loan funds to companies that were failing. Because
                                        these loans were not carefully serviced, 49 these funds are not available to
                                        support future broadband loans.

                                        Without any written procedures, RUS did not timely obtain or review
                                        independent annual audit reports for loans. Although RUS officials stated
                                        the agency’s new loan agreements would now require quarterly financials
                                        from borrowers that should help detect companies in danger of defaulting on
                                        their loans, we had no opportunity to evaluate the servicing of FY 2004
                                        loans because meaningful information was not yet available. We noted that

47
   Departmental regulations state that GAO’s “Standards for Internal Control in the Federal Government” provide standards for use in establishing and
maintaining systems of management control (DM 1110-2, Management Control Manual, chapter 2, section 3, - Management Control Standards, dated
November 29, 2002). GAO standards state that internal control monitoring should assess the quality of performance over time and ensure that the findings
of audits and other reviews are promptly resolved (GAO, Standards for Internal Control in the Federal Government, Control Activities Section, dated
November 1999).
48
   7 CFR 3015.122(a), dated November 10, 1981.
49
   We found that these loans had one or more of the following servicing deficiencies: the independent annual audit report had not been issued; the annual
audit report had been issued, but had not been received until after the loan was in default; the GFR did not visit until after the loan was in default; or the
Loan Fund Accounting Representative detected problems before the default, but no action was taken.

USDA/OIG-A/09601-4-Te                                                                                                                            Page 23
                                                              SEPTEMBER 2005
                                        one of the defaulted borrowers with a pilot loan also received a pilot grant. 50
                                        RUS had not reviewed the grant-funded project to determine its viability.
                                        Therefore, the grantee (i.e., defaulted borrower) may be jeopardizing the
                                        intended use of the grant funds as well.

                                        Pilot Loan and Grant Funds Were Not Drawn Down—RUS has not
                                        exercised timely oversight of approved grant and loan projects to ensure that
                                        all obligated funds were drawn down and used for the agreed-upon purpose.
                                        For pilot loans and grants, RUS has established a general policy that
                                        companies have 3 years to draw down all obligated funds. This period is not
                                        statutory or regulatory in nature, and depends instead on the grantee’s or the
                                        borrower’s project needs. Though this time period may be reasonable,
                                        RUS does not verify that companies’ projects remain viable and are
                                        progressing as planned. As a result of this lack of oversight, $37 million of
                                        the $59.3 million 51 not drawn down is therefore not available for future
                                        funding.

                                        For the pilot loan program (FYs 2001 and 2002), the borrowers for 18 of
                                        28 approved loans totaling $180 million have not drawn down all obligated
                                        funds totaling over $53.8 million. Further, 11 of the 18 loans with almost
                                        $37 million 52 of obligated funds have gone past the 3-year limit to draw
                                        down funds. Because these situations have not been dealt with in a timely
                                        manner, these funds are not available to support future broadband loans. 53

                                        For the pilot grant program (FYs 2002 and 2003), 20 of 74 grants obligating
                                        $32 million have not drawn down any of the grant funds. In addition,
                                        14 grantees are not attempting to construct their broadband projects,
                                        resulting in a total of $5.5 million going unused. Although none of these
                                        grants has exceeded the 3-year timeframe, RUS indicated that some of the
                                        funds are not going to be used, but has not yet deobligated them. For
                                        example, even though RUS acknowledged they were aware that $440,000 of
                                        grant funds was issued to a community unable to enter into an agreement, 54
                                        it has not taken steps to deobligate the grant and put the funds to better use.

                                        Timely oversight of these loan and grant projects could have detected
                                        whether projects were progressing as planned. Especially when funds had
                                        not been drawn down for months, visits should have been performed to
                                        evaluate the continuing viability of the project. In some cases, RUS should
                                        have acted and reobligated funds for other applicants.




50
   A company may be issued both a loan and a grant if the community being served by the grant differs from the community being served by the loan.
51
   As of March 2005.
52
   About $4 million of these funds was reported above for the defaulted pilot loans.
53
   The source of funds determines their eligibility. RUS can cancel and reloan discretionary funds, like those expended for the pilot programs, within a
period of eligibility associated with certain sums of money. All pilot funds have, at present, exceeded their period of eligibility. Thus, if they have not yet
been drawn down, those funds are no longer available to support the broadband programs.
54
   The community was, in this case, the grantee. The community’s own policies prohibited it from entering into a grant agreement.

USDA/OIG-A/09601-4-Te                                                                                                                             Page 24
                                                               SEPTEMBER 2005
                                    Cancelled Loans Not Put to Better Use—Another $6.8 million in pilot
                                    loans was approved but then cancelled when it became apparent that the
                                    companies to which they were issued were not going to use the funds. 55
                                    RUS was not able, however, to reobligate those funds to companies better
                                    able to use the loans because the agency had not acted within the time
                                    period established by Congress. Though such cancellations will occur,
                                    RUS does not have a system in place to timely identify and reallocate funds
                                    that will otherwise go unused.

                                    We conclude that RUS, in order to ensure that funds are used as efficiently
                                    as possible, needs to develop and implement written controls for approving
                                    and servicing broadband grants and loans.

Recommendation 6

                                    Develop and implement written guidance for the Community Connect Grant
                                    Program including the following:

                                         • application review and rating;
                                         • training for reviewers;
                                         • GFR requirements for project visits;
                                         • monitoring project activity and completion (including compliance
                                           reviews); and
                                         • suspension or termination in accordance with regulations.

                                    Agency Response.

                                    Although the Telecommunications Program has implemented a number of
                                    the oversight items listed in the audit report (i.e., worksheets for reviewing
                                    and scoring a grant application have been developed, training is provided to
                                    the reviewers each year at the start of the review process, advance of grant
                                    funds is suspended when improprieties are identified, etc.), the audit report is
                                    correct in its findings that the oversight procedures have not been
                                    documented in the form of staff instructions. The Telecommunications
                                    Program is committed to the development and implementation of written
                                    guidance for the Community Connect Grant Program.

                                    The Telecommunications Program will complete the following tasks by
                                    March 30, 2006.

                               9         Develop staff instruction for reviewing and scoring grant application.

                               9         Develop staff instruction transmitting and clearing grant documents.


55
  $152,669 was rescinded because the borrower received a loan under a special 9/11 program; $2,104,000 was cancelled because the entity decided
(13 months later) not to provide the service; and $4,536,295 was cancelled because the borrower decided in 2004 to use a Farm Bill loan for the
community.

USDA/OIG-A/09601-4-Te                                                                                                              Page 25
                                                        SEPTEMBER 2005
                 9       Develop staff instruction for advance of grant funds.

                 9       Develop staff instruction for GFR oversight of grants.

                 9       Develop staff instruction for servicing of grants.

                 9       Develop staff instruction for rescission and reobligation of grants.

                     OIG Position.

                     We concur with the management decision for Recommendation 6. To
                     achieve final action, RUS needs to send OCFO/PAD documentation that the
                     above-mentioned written guidance was completed by March 30, 2006.

Recommendation 7

                     Develop and implement written guidance for the Broadband Loan Program
                     including the following:

                        •   applications to be reviewed and approved;
                        •   GFRs to perform periodic reviews to ensure the proper use of funds
                            and the viability of projects;
                        •   independent annual audit reports to be obtained and reviewed;
                        •   quarterly financial reports to be obtained and reviewed;
                        •   recommendations from GFR reports and compliance reviews to be
                            analyzed and acted upon; and
                        •   applications and supporting documents to be complete before the
                            applicant is approved.

                     Agency Response.

                     The Telecommunications Program has recognized the need to develop and
                     implement written guidance for the Broadband Loan Program and has
                     started the process of formalizing the procedures that are currently in use.

                     To date, the Telecommunications Program has completed the following staff
                     instructions:

                 9       Initial log-in procedures when an application is received.

                 9       Procedures for the initial financial review of an application.

                 9       Procedures for the initial engineering review of an application.




USDA/OIG-A/09601-4-Te                                                                       Page 26
                                    SEPTEMBER 2005
                     In addition, the Telecommunications Program is in the final stages of
                     completing the development of a loan feasibility model and the
                     corresponding instructions for using this model. The projected completion
                     date for full implementation of this model is October 30, 2005.

                     It should also be noted that the Telecommunications Program is in the
                     process of developing a database to monitor the performance of all
                     companies that are issued a loan. The database will track actual quarterly
                     financial statistics against projected financial statements and will monitor the
                     ongoing health of the operation. As part of this effort, a system is being
                     developed that will allow each borrower to electronically submit the required
                     quarterly financial reports. This project is scheduled for completion by
                     January 30, 2006.

                     The Telecommunications Program is committed to completing the
                     development and implementation of written guidance for the Broadband
                     Loan Program. The Telecommunications Program will complete the
                     following tasks by March 30, 2006.

                 9       Staff instruction for the detailed financial review of an application.

                 9       Staff instruction for the detailed engineering review of an application.

                 9       Staff instruction for assembling the loan packet that will be presented to
                         the credit committees for loan approval.

                 9       Staff instruction for preparing and clearing the legal loan documents.

                 9       Staff instruction for GFR oversight of the broadband loans.

                 9       Staff instruction for servicing of the broadband loans.

                 9       Staff instruction for rescinding and reobligating loans.

                     OIG Position.

                     We concur with the management decision for Recommendation 7. To
                     achieve final action, RUS needs to supply OCFO/PAD documentation that
                     the above-mentioned actions have been completed by the dates indicated.

Recommendation 8

                     Recover advanced grant funds of $1,936,046 from company B.




USDA/OIG-A/09601-4-Te                                                                        Page 27
                                    SEPTEMBER 2005
                    Agency Response.

                    The Telecommunications Program has completed an accounting audit of
                    company B and is in the process of recovering all funds that were not
                    accounted for properly.

                    OIG Position.

                    We agree with the action taken. However, to reach management decision,
                    RUS needs to provide documentation showing an accounts receivable has
                    been established and that the borrower has been billed for the unauthorized
                    use of grant funds, and timeframes for such actions.

Recommendation 9

                    Deobligate the remaining grant funds of $762,226 from company B.

                    Agency Response.

                    The Telecommunications Program has suspended advances of all remaining
                    grant funds for company B. The Telecommunications Program is currently
                    reviewing this situation and will take all appropriate action.

                    OIG Position.

                    We agree with the action taken. However, to reach management decision,
                    RUS needs to provide documentation showing what actions it will take to
                    deobligate the funds, and the timeframes for doing so.

Recommendation 10

                    Recover the $30,377,069 for the six defaulted pilot loans.

                    Agency Response.

                    All of these loans have been transferred from the Broadband Division to the
                    Policy Analysis and Risk Management Division. The Policy Analysis and
                    Risk Management Division is responsible for working with borrowers that
                    are in default and recovering the outstanding loan balances. The Policy
                    Analysis and Risk Management Division is currently working with each of
                    the six borrowers in question.

                    OIG Position.

                    We agree with the action taken. However, to reach management decision,
                    RUS needs to provide documentation showing timeframes for actions that
                    will be taken to recover the funds, or provide justification for not doing so.

USDA/OIG-A/09601-4-Te                                                                    Page 28
                                   SEPTEMBER 2005
Recommendation 11

                    Review all loans and grants that have not drawn down funds and determine
                    whether proposed projects are still viable. If the projects are not viable,
                    deobligate the funds.

                    Agency Response.

                    For the Pilot Broadband Loans, the Telecommunications Program is in the
                    process of completing a review of all borrowers with unadvanced funds.
                    Once this review is completed, the Telecommunications Program will make
                    a determination if the funds are still required. Any funds that are not
                    required will be deobligated.

                    For the Farm Bill Broadband Loans, all loans have an initial 5-year period to
                    draw down funds. All of these loans are still within this period. When one
                    of these loans reaches the end of the 5-year period, a financial analysis will
                    be completed if funds remain unadvanced to determine if they are still
                    required and can be supported by the operation.

                    For the Community Connect Broadband grants, all grants have a 3-year
                    drawdown period. The Telecommunications Program will initiate a review
                    of all grants that have exceeded the timeframe to draw down funds. All
                    funds that are not required to complete the projects or cannot be supported
                    by operations will be deobligated.

                    OIG Position.

                    We agree with the action taken. However, to reach management decision,
                    RUS needs to provide its timeframes for completing these reviews.

Recommendation 12

                    Establish and implement procedures to ensure cancellation and reobligation
                    of unused grant and loan funds within the time periods specified by
                    Congress.

                    Agency Response.

                    The Telecommunications Program currently has procedures in place to
                    cancel and reobligate grant and loan funds. Written procedures will be
                    developed as part of the action items included in the agency’s response for
                    Recommendations 6 and 7.




USDA/OIG-A/09601-4-Te                                                                    Page 29
                                   SEPTEMBER 2005
                                    OIG Position.

                                    We concur with the management decision for Recommendation 12. To
                                    achieve final action, RUS needs to send OCFO/PAD a copy of its written
                                    procedures.




Finding 4                           RUS Needs to Unify Its Administration of Broadband Grants and
                                    Loans

                                    RUS’ system for administering broadband grants and loans is not unified
                                    and does not facilitate informed, global management decisions about the
                                    program as a whole. Because RUS has not considered the grant program
                                    permanent, it has maintained a divided management structure, requiring that
                                    grant and loan applications be processed by different personnel. This
                                    division has resulted in grants being issued to a community where a loan had
                                    already been provided, in direct violation of grant provisions. RUS’ Acting
                                    Assistant Administrator has explained that this division is due to the
                                    Broadband [Loan] Division’s lacking sufficient staff to handle both loans
                                    and grants. This management structure might be tenable if RUS possessed
                                    an effective, unified information system for monitoring loan and grant
                                    information and distributing that information to both groups of employees.
                                    However, RUS’ current information system is not equal to this task and
                                    cannot help management make the most informed funding decisions
                                    possible. Shortcomings in this information system have meant that RUS’
                                    management has made decisions based on incomplete and inaccurate
                                    information. On the whole, this organizational arrangement lessens the
                                    assurance that the broadband programs’ purposes are being accomplished
                                    consistently.

                                    GAO’s “Standards for Internal Control in the Federal Government” provide
                                    Departmentwide rules for establishing and maintaining management control
                                    systems. 56 According to GAO, effective management of an organization’s
                                    workforce is essential to achieving results and an important part of internal
                                    control. Only when personnel are provided the right training, tools,
                                    structure, incentives, and responsibilities is operational success possible. 57
                                    GAO standards also state that for an entity to run and control its operations,
                                    it must have relevant, reliable, and timely communications relating to
                                    internal as well as external events. The agency also needs up-to-date,
                                    accurate information to determine whether it is complying with various laws
                                    and regulations. 58



56
   DM 1110-2, Management Control Manual, chapter 2, section 3 – Management Control Standards, dated November 29, 2002.
57
   GAO, Standards for Internal Control in the Federal Government, Control Activities Section, dated November 1999.
58
   GAO, Standards for Internal Control in the Federal Government, Information and Communications Section, dated November 1999.

USDA/OIG-A/09601-4-Te                                                                                                            Page 30
                                                         SEPTEMBER 2005
                                          Divided Management Structure—

                                          Grants are not currently united with loans under the Broadband Division.
                                          RUS has kept grants and loans separate because the Presidential budget does
                                          not include funding for broadband grants; instead, since FY 2002, Congress
                                          has appropriated these funds. Since these appropriations may not continue,
                                          RUS does not consider the grant program permanent and does not believe
                                          that incorporating loans and grants under the same division would be
                                          practical, especially given the personnel shortages its Broadband Division is
                                          experiencing.

                                          Due to this arrangement, coordination problems occur between the
                                          divisions—loan personnel do not always know what grant personnel are
                                          doing and vice versa. We found, in one instance, that two separate
                                          companies received funding to provide broadband access to the same
                                          community. After a loan had already been issued to one company for
                                          $3.3 million, a $383,284 grant was approved to a second company providing
                                          service to the same community, even though grant program instructions
                                          specifically prohibit funding a community that already has service. 59
                                          RUS officials explained that this situation might have occurred because the
                                          company receiving the loan had not yet started to build in the community
                                          before the grant was awarded; however, both the loan and the grant were
                                          approved with the clear intent of supplying the community with broadband
                                          service. Because of its divided management structure, the agency was not
                                          aware that it was, in effect, funding competitive services, nor was any
                                          objective market research performed to determine if the community could
                                          support two broadband services. A management information system capable
                                          of bridging this administrative divide would help to eliminate these
                                          problems, but, as we discuss below, RUS’ information technology is not
                                          equal to the agency’s needs.

                                          Given the dangers we have touched on concerning competition between
                                          broadband providers in rural areas (see Finding 2), we conclude that
                                          RUS needs a unified management structure capable of seeing exactly what
                                          grants and loans it has provided to any given community. Though the grants
                                          may not be permanent, so long as Congress is appropriating funds for them,
                                          RUS needs a management structure capable of properly coordinating
                                          Federal grants and loans.

                                          Management Information System—

                                          Several weaknesses in RUS’ information system prevent the agency from
                                          managing loans and grants based on the most timely and accurate
                                          information. The current database used for monitoring loan applications
                                          does not include all grant and loan information since the pilot programs’
                                          inception; it does not accurately list all communities that have received

59
     Federal Register, Vol. 67, No. 130, “Notice of Funds Availability,” dated July 8, 2002.

USDA/OIG-A/09601-4-Te                                                                                          Page 31
                                                                SEPTEMBER 2005
                    broadband grant and loan funds; and it does not monitor all relevant
                    servicing activities. Due to these shortcomings, RUS cannot, without
                    manually reviewing all loan and grant files, determine how the broadband
                    programs are performing.

                        Database is Incomplete—

                        RUS’ database contains broadband loans made for FYs 2003 through
                        2005, but information from the pilot loan program in FYs 2001 and 2002
                        is not included. No information for broadband grants is contained in the
                        database. Any comparison between loan and grant information must be
                        accomplished manually between the separate divisions. Because manual
                        coordination between the divisions does not (as our aforementioned
                        example indicates) always occur, grants may be issued to communities
                        where loans have previously been made.

                        Funded Communities Are Not Accurately Represented—

                        The Broadband Loan Program’s database does not accurately identify all
                        funded communities: it fails to list some communities receiving funds
                        and lists other communities not receiving funds. When a community is
                        not listed in the census, RUS designates that community only as a “rural
                        area.” Since part of the database’s purpose is to alert agency officials to
                        cases where communities would receive duplicate funding, this “rural
                        area” designation is too vague to be useful—one cannot determine from
                        the database alone whether or not a community has already received
                        broadband funds.

                        Furthermore, if multiple communities within a county are not listed in
                        the census, then the communities are often combined into a single “rural
                        area.” For example, our sample of 11 loans provided service to
                        240 communities, 30 of which were not in the census; therefore, RUS
                        did not add the names of the communities to the Broadband Loan
                        Program’s database. In addition, only 12 of the 30 were identified by
                        the designation of “rural area.” Therefore, the other 18 communities
                        were not identified by name or number in the database. Instead, they
                        were combined with one or more of the 12 “rural area” designations due
                        to being located in the same county. We conclude that this way of
                        listing communities understates the total number of communities
                        receiving RUS funds for broadband services.

                        In addition, the database lists some communities not funded by
                        RUS loans. Companies making applications are required to list all the
                        communities they will be serving even though some will not be funded
                        by a RUS broadband loan. All these communities are nonetheless
                        recorded in the database and could result in RUS overstating the total
                        number of communities it has funded.

USDA/OIG-A/09601-4-Te                                                                      Page 32
                                   SEPTEMBER 2005
                        Servicing Activities Are Not Documented—

                        The system does not track GFRs’ project-related field visits. A more
                        useful database would record and monitor schedules for GFR site visits,
                        performance reports, and annual audit reports for each project. Without
                        an effective tracking system, RUS cannot effectively determine whether:
                        (1) required site visits are conducted, (2) projects are on schedule,
                        (3) funds are used properly, and (4) performance reports are accurate.

                    RUS is in the process of improving its information technology. The current
                    broadband database, established primarily to track loan application status,
                    was introduced in February 2004. A RUS official stated that RUS was
                    scheduled to bring online a new database capable of performing new
                    processes. Both the new database and the existing database, however, only
                    track loan applications from the time they are received until either they are
                    denied or they are approved and funds are released. RUS also has started
                    working on a third database, a loan portfolio management system that will
                    monitor projected performance against actual performance. Though this new
                    management information system may be an improvement over RUS’ current
                    system, it does not necessarily address the agency’s need for a truly unified
                    information system.

                    We conclude that RUS needs a unified management information system
                    capable of capturing critical information across the entire range of the
                    broadband programs. So long as broadband loans and grants are processed
                    by different personnel, the agency’s need for a management information
                    system capable of sharing relevant data between these two distinct groups of
                    personnel is all the more pressing. RUS should ensure that the revised
                    databases include grant information, pilot program grants and loans, the
                    names and total count of all funded communities, and project-related
                    servicing activities.

Recommendation 13

                    Align both the Broadband Loan Program and the Broadband Grant Program
                    under the Broadband Division to promote accuracy in eligibility
                    determinations when processing broadband loan and grant applications.

                    Agency Response.

                    Currently, the Advanced Services Division of the Telecommunications
                    Program is responsible for completing the initial review and awarding of
                    broadband grants. In addition to the broadband grants, the Advanced
                    Services Division also is responsible for reviewing and awarding a number
                    of other grant programs for which the Telecommunications Program is
                    responsible. The Telecommunications Program believes that the expertise
                    that this division has developed in reviewing and awarding grants is essential

USDA/OIG-A/09601-4-Te                                                                    Page 33
                                   SEPTEMBER 2005
                    to ensuring that all grants are awarded fairly and will continue to use the
                    Advanced Services Division to review and award the broadband grants.

                    Once the Advanced Services Division has awarded the broadband grants, the
                    grants are turned over to the Northern and Southern Divisions of the
                    Telecommunications Program for servicing. Starting with the award of the
                    broadband grants for FY 2005, the responsibility for servicing these grants
                    will be transferred to the Broadband Division. The Northern and Southern
                    Divisions will complete the servicing of the prior grants.

                    OIG Position.

                    We commend RUS for shifting grant servicing under the Broadband
                    Division; however, we believe the Broadband Division should also be
                    responsible for the awarding of the grants. Please provide details on what
                    actions are planned to ensure uniform approval and service of grants, as well
                    as the timeframes for these actions.

Recommendation 14

                    Develop and implement an integrated management information system that
                    will track all loan and grant information from the date the application is
                    submitted through servicing and project completion. The system also should
                    include (a) all pilot loan and grant information, (b) identification of specific
                    communities or locations for each loan or grant, and (c) dates and results of
                    servicing activities.

                    Agency Response.

                    The Telecommunications Program currently has an Access data base that
                    tracks all 2002 Farm Bill broadband loans from the time the application is
                    received until the application is deemed ineligible for funding or until funds
                    are made available for advance. This database is being upgraded to a
                    Structure Query Language database and will be brought on-line shortly.

                    In addition to the Structure Query Language database for applications, the
                    Telecommunications Program is currently in the process of completing a
                    database for the purpose of loan portfolio management of the Farm Bill
                    loans. This database will be linked to the broadband application database.

                    The Telecommunications Program agrees with the audit report findings
                    concerning the expansion of these databases. The Telecommunications
                    Program will start the process of expanding these databases to include all
                    relevant information for the pilot broadband loans and the broadband grants.
                    This effort will include incorporation of the audit report’s recommendations.



USDA/OIG-A/09601-4-Te                                                                       Page 34
                                    SEPTEMBER 2005
                   OIG Position.

                    We agree with the planned corrective action. However, to reach management
                    decision, RUS needs to provide timeframes for implementation of the
                    corrective actions described.




USDA/OIG-A/09601-4-Te                                                                Page 35
                                  SEPTEMBER 2005
Scope and Methodology
                    In order to review RUS’ FYs 2001 through 2005 administration of the
                    Broadband Grant and Loan Programs, we visited the RUS National Office in
                    Washington, D.C., and examined loan and grant files for FYs 2001 through
                    2005, as of March 10, 2005.

                    To assess RUS’ administration of the programs, we identified and examined
                    its management controls over entity eligibility and application processing.
                    Specifically, we reviewed financial and management records; statutes and
                    acts applicable to broadband programs; and regulations, policies, and
                    procedures at the national office that RUS used to administer the Broadband
                    Grant and Loan Programs. We also conducted interviews with national
                    office personnel and reviewed applications and supporting documents in the
                    loan and grant files. We conducted our fieldwork from January 2004 through
                    April 2005 in accordance with Government auditing standards and
                    OIG policies and procedures.

                    Overall, we reviewed 33 of 90 funded grants totaling $20.2 million of
                    $41 million, or 49 percent of the total funded amount. We also reviewed
                    28 of 64 funded loans totaling $578.9 million of $854 million, or 68 percent
                    of the total funded amount.

                           •   For the Broadband Pilot Grant Program (FYs 2002–2003), there
                               were 318 applications submitted. Of these, 74 were funded
                               totaling $32.1 million, and we selected for review 17 totaling
                               $11.3 million. Also, we reviewed 28 additional applications—
                               1 approved but not funded, and 27 not approved.
                           •   For the Community Connect Grant Program (FY 2004), there
                               were 158 applications submitted. Of these, 16 were funded
                               totaling $8.9 million, and we reviewed all 16. Also, we reviewed
                               12 additional applications—4 approved but not funded, and
                               8 ineligible.
                           •   For the Broadband Pilot Loan Program (FYs 2001-2002), there
                               were 61 applications submitted. Of these, 28 were funded totaling
                               $180 million, and we selected for review 13 totaling $94 million.
                               Also, we reviewed 6 returned applications.
                           •   For the 2002 Farm Bill Broadband Loan Program
                               (FYs 2003-2005), there were 128 applications submitted. Of
                               these, 36 were funded totaling $674.2 million, and we selected
                               for review 15 totaling $484.9 million. Also, we reviewed
                               10 returned applications.



USDA/OIG-A/09601-4-Te                                                                   Page 36
                                  SEPTEMBER 2005
                    We judgmentally selected funded loans and pilot grants to review based
                    upon (1) the dollar amount of a loan or grant, (2) the location of proposed
                    broadband services, (3) the timeliness of loan payments, (4) applicants
                    receiving both a loan and a grant, and (5) services provided to numerous
                    communities. All funded 2004 grant applications were reviewed. The
                    additional grant applications were selected to determine the reason for denial
                    and why approved applications had not been funded. We reviewed the
                    rejection letters for the additional loan applications to determine why the
                    applications had been returned. Also, we evaluated the scoring and ranking
                    of grant applications.

                    We selected and visited 21 communities for 1 pilot loan and 9 pilot grant
                    applications. Twelve communities were selected because of their close
                    proximity to metropolitan areas, seven were selected because of the apparent
                    discrepancies in the grant applications, and two were selected because of
                    high per capita income. We did not visit the recipients to determine how
                    funds were used.

                    We also performed an analysis on all loans and grants to determine funded
                    communities’ proximity to large cities. This analysis was performed based
                    on our review of the pilot loan file for company A. The file contained an
                    area map showing the subdivisions requested for funding were very near the
                    outskirts of Houston, Texas. Our field visits confirmed this was true. Based
                    on this, we performed an analysis to identify other communities near large
                    cities. We used the Adobe Acrobat Portable Document Format file (dated
                    February 10, 2005) on RUS’ website, which listed all broadband loan and
                    grant communities for approved and pending applications from FYs 2001 to
                    2005, as well as RUS’ database to develop an Excel spreadsheet of all
                    approved communities and the companies providing service. We then used
                    the U.S. Census to determine the population of the communities, as well as
                    the U.S. Cities website to determine proximity of the communities to large
                    metropolitan cities with populations over 200,000. We selected all funded
                    communities within a 30-mile radius from a city larger than 200,000. We
                    then used a Rand McNally 2005 Road Atlas to further determine how close
                    the communities were to the outskirts of the large cities. Although the U.S.
                    Cities website did not indicate the point in the city from which distance had
                    been measured, we concluded measurements were made from the center of
                    the city based on the sample case in Finding 2. The website showed that one
                    of the subdivisions for company A was about 30 miles from Houston. We
                    knew based on our review of a Houston-area map, a visit to the subdivision,
                    and an interview with a city official that the community was only 10 miles
                    from the outer edge of Houston’s city limits.




USDA/OIG-A/09601-4-Te                                                                    Page 37
                                   SEPTEMBER 2005
                                    From this review, we identified 43 additional communities near 13 large
                                    cities in 10 States. 60 These communities were funded through 13 loans
                                    totaling over $417.8 million. Although certain funds can be identified for a
                                    specific community, other funds are spent on common equipment that is
                                    used for all communities on the network; on a loan-by-loan basis, it would
                                    be necessary to itemize and evaluate each expenditure on each loan. To
                                    assign estimated dollar amounts to these questioned communities, we
                                    divided the total loan amount by the total communities being funded, and
                                    applied the result to the number of questioned communities for the loan. In
                                    all, we questioned over $60 million, in addition to the $45.6 million in the
                                    Houston area. We also identified two pilot grants to two communities
                                    totaling $477,705. For 2004, there were no grants to communities near large
                                    cities.




60
   The cities (population) and States are: Chicago (2,896,016), Illinois; Fort Wayne (205,727), Indiana; Honolulu (371,657), Hawaii; Kansas City
(441,545), Missouri; Lincoln (225,581), Nebraska; Minneapolis (382,618), Minnesota; Oklahoma City (506,132), Oklahoma; Omaha (390,007),
Nebraska; Pittsburgh (334,563), Pennsylvania; San Antonio (1,144,646), Texas; St. Paul (287,151), Minnesota; and Wichita (344,284), Kansas.

USDA/OIG-A/09601-4-Te                                                                                                               Page 38
                                                         SEPTEMBER 2005
Exhibit A – Summary of Monetary Results
                                                                                                                         Exhibit A – Page 1 of 1


     FINDING              RECOMMENDATION
     NUMBER                   NUMBER                                DESCRIPTION                      AMOUNT                 CATEGORY
                                                                                                                             FTBPTBU,*
                                                                    Funds Given to                                          Management or
          1                                2                       Communities Near                                           Operating
                                                                     Large Cities 61                                        Improvements/
                                                                                                    $103,411,898               Savings
                                                                                                                             FTBPTBU,
                                                                    Applications Not                                        Management or
          3                                7                          Complete 62                                             Operating
                                                                                                                            Improvements/
                                                                                                      137,434,250              Savings
                                                                       Company B
                                                                      Deviated From                                Questioned Cost,
          3                                8                          Planned Use of                                  Recovery
                                                                          Funds                          1,936,046 Recommended
                                                                       Company B
                                                                      Deviated From                                            FTBPTBU,
          3                                9                          Planned Use of                                          Deobligations
                                                                          Funds                             762,226
                                                                                                                           Questioned Cost,
          3                               10                         Defaulted Loans                                           Recovery
                                                                                                        30,377,069          Recommended
                                                                        Funds Not                                             FTBPTBU,
          3                               11                           Drawn Down                       59,278,582           Deobligations
                                                                                                                              FTBPTBU,
                                                                                                                           Management or
          3                               12                        Cancelled Funds                                            Operating
                                                                                                         6,792,964          Improvements
                                                                                                                              FTBPTBU,
                                                                                                                           Management or
          4                               13                       Duplicate Funding                                           Operating
                                                                                                                            Improvements/
                                                                                                            383,284             Savings

                             Total Questioned Funds                                                $340,376,319

* Funds To Be Put To Better Use



61
 The total amount for this finding is $106,155,452; however, $2,743,554 of this amount is included in Finding 3, Recommendation 10 – Defaulted Loans.
62
 The total amount for this finding is $179,536,000; however, $42,101,750 of this amount is included in Finding 1, Recommendation 2 – Funds Given to
Communities Near Large Cities.

USDA/OIG-A/09601-4-Te                                                                                                                    Page 39
                                                           SEPTEMBER 2005
Exhibit B – Houston, Texas, City Map and Vicinity
                                                                            Exhibit B – Page 1 of 2




                                     1                                  A
         D     2
        4          3
           C
         B
           5
                   6
                                                                   12
                         7




    8
9




        10




                                             11




                       Houston City Limits
                       5-Mile Radius
                       10-Mile Radius



USDA/OIG-A/09601-4-Te                                                                    Page 40
                                                  SEPTEMBER 2005
                                                                                           Exhibit B – Page 2 of 2

NOTES APPLICABLE TO REPORT AND PAGE 1 OF THIS EXHIBIT:

Note 1.
   Subdivisions included in the $22.9 million loan to company A and within a 10-mile radius of the Houston
   city limits:
     1 Gleannloch Farms                     7 Berkshire
     2 Stablegate                           8 Seven Meadows
     3 Coles Crossing                       9 Grayson Lakes
     4 Blackhorse Ranch                     10 River Park West
     5 Westgate                             11 Sienna Plantation
     6 Lone Oak                             12 Fall Creek


Note 2.
   Subdivisions on the outskirts of other cities near Houston, Texas, with a population over 20,000:
     Missouri City: 52,913
          11 Sienna Plantation
     Sugarland: 63,328
          10 River Park West
     Mission Bend: 30,831
          8 Seven Meadows
          9 Grayson Lakes


Note 3.
   Subdivisions within the extraterritorial jurisdiction of:
   Houston, Texas (Population 1,953,631)
     1 Gleannloch Farms                        6 Lone Oak
     2 Stablegate                              7 Berkshire
     3 Coles Crossing                          8 Seven Meadows
     4 Blackhorse Ranch                        12 Fall Creek
     5 Westgate
   Missouri City, Texas (Population 52,913)
     11 Sienna Plantation


Note 4.
   Subdivisions serviced by company A, but not funded through the Broadband Pilot Loan Program:
     A Summerwood
     B Cypress Creek Lakes
     C Cypress Creek Ranch


Note 5.
   A proposed subdivision that was in company A’s original application; however, the developer did not want
   to wait and contracted with another telecommunications company that did not have a Government loan.
     D Cypress Mills




USDA/OIG-A/09601-4-Te                                                                                   Page 41
                                            SEPTEMBER 2005
Exhibit C – Homes Serviced by Company A
                                           Exhibit C – Page 1 of 1




USDA/OIG-A/09601-4-Te                                   Page 42
                          SEPTEMBER 2005
Exhibit D – Towers Misrepresented in Company B’s Grant Applications
                                                                                                                Exhibit D – Page 1 of 1

Company B’s application for Batesville, Texas:




Company B’s application for Crystal City, Texas:




Company B’s application for Pregreso, Texas:




NOTE: The pictures on the left show the same water tower, only taken at different distances. The tower is actually located in Crystal
City, not in Batesville or Pregreso. The pictures on the right are duplicates of a water tower actually located in La Pryor, Texas, not in
either Batesville or Crystal City, as indicated in company B’s application.




USDA/OIG-A/09601-4-Te                                                                                                          Page 43
                                                      SEPTEMBER 2005
Exhibit E – Agency Response
                                         Exhibit E – Page 1 of 13




USDA/OIG-A/09601-4-Te                                  Page 44
                        SEPTEMBER 2005
USDA/OIG-A/09601-4-Te                    Page 45
                        SEPTEMBER 2005
USDA/OIG-A/09601-4-Te                    Page 46
                        SEPTEMBER 2005
USDA/OIG-A/09601-4-Te                    Page 47
                        SEPTEMBER 2005
USDA/OIG-A/09601-4-Te                    Page 48
                        SEPTEMBER 2005
USDA/OIG-A/09601-4-Te                    Page 49
                        SEPTEMBER 2005
USDA/OIG-A/09601-4-Te                    Page 50
                        SEPTEMBER 2005
USDA/OIG-A/09601-4-Te                    Page 51
                        SEPTEMBER 2005
USDA/OIG-A/09601-4-Te                    Page 52
                        SEPTEMBER 2005
USDA/OIG-A/09601-4-Te                    Page 53
                        SEPTEMBER 2005
USDA/OIG-A/09601-4-Te                    Page 54
                        SEPTEMBER 2005
USDA/OIG-A/09601-4-Te                    Page 55
                        SEPTEMBER 2005
USDA/OIG-A/09601-4-Te                    Page 56
                        SEPTEMBER 2005
